                                        CLOSEOUT FOR MOO060026

             This case came to OIG on June 7,2000, when a division director' informed us of an
     allegation of misconduct in science. The complainant^ in explaining his request that the subject3
     not review the complainant's pending proposal, alleged that the subject had "attempted to take
     credit for earlier discoveries . . .that I and my colleagues had earlier introduced and of which he
     was aware."

            OIG contacted the complainant, who said that the subject's alleged intellectual theft
     occurred over ten years ago. OIG concluded that this matter was too old to pursue.

             When OIG contacted the complainant, he mentioned that he had heard an allegation of
     intellectual theft against another ~cientist.~The complainant said that this allegation had been
     made to him in confidence, and he declined to give specific information. The complainant added
     that he had been told that the scientist's university had concluded that this allegation lacked
     merit. OIG concluded that this allegation was too vague to pursue.

         OIG noted that the division director who brought this allegation to our attention had
 learned of it from a program officer5in his division. The program officer had sent a message to
 the division director and four other staff members in their directorate calling their attention to the
 allegation. OIG reminded the division director that alle ations of misconduct should be brought
                                                                 d:
 to OIG's attention and not otherwise widely circulated. The division director said he would so
 inform the staff member who had brought the allegation to his attention.

            This inquiry is closed and no further action will be taken on this case.




 ' Dr.
 Duec=Human


'Dr.
                                        -
                                        -
                             irector of NSF's Division
                                      Resources.
                         f the Department -
                        of the Center for
                            a-
                             J .
                                                     !       a         t
                                                                      at
                                                                              B
                                                                              -
                                                                                                   in the


                                                                                                       .


and Human Resources.
 OIG Bulletin No. 92-01 (page 3) states that "Staff members may tell their supervisors, as well as others within
.6
NSF who are working with the same proposal or award and who need to know. Otherwise, the information should
be kept strictly confidential, in order to protect the reputations of those involved."
